Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





  STATES’ USE OF NEW DRUG 

PRICING DATA IN THE MEDICAID 

          PROGRAM





                    Daniel R. Levinson

                     Inspector General 


                       April 2007

                     OEI-03-06-00490

               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations. These assessments help reduce waste,
abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on
significant issues. Specifically, these evaluations focus on preventing fraud, waste, or
abuse and promoting economy, efficiency, and effectiveness in departmental programs.
To promote impact, the reports also present practical recommendations for improving
program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. OCIG imposes program exclusions and civil
monetary penalties on health care providers and litigates those actions within HHS.
OCIG also represents OIG in the global settlement of cases arising under the Civil False
Claims Act, develops and monitors corporate integrity agreements, develops compliance
program guidances, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
Δ    E X E C U T I V E                                   S U M M A R Y         




                  OBJECTIVE
                  To provide an early assessment of whether States are considering using
                  new pricing data for Medicaid prescription drug reimbursement.


                  BACKGROUND
                  All States and the District of Columbia offer prescription drug coverage
                  under Medicaid. In 2005, Federal and State expenditures for
                  prescription drugs in the Medicaid program reached $41 billion.

                  Pursuant to the Deficit Reduction Act of 2005 (DRA), the Centers for
                  Medicare & Medicaid Services (CMS) is providing States with
                  sales-based drug pricing information that was previously not available
                  for their use. Recent studies have found that published prices, such as
                  average wholesale price and wholesale acquisition cost used by States to
                  estimate drug acquisition costs, are higher than prices based on actual
                  sales transactions. In July 2006, CMS began sending States average
                  manufacturer price (AMP) data monthly. CMS will also provide retail
                  sales price (RSP) data to States starting in early 2007. However, the
                  DRA does not require States to use AMP or RSP data to revise their
                  current Medicaid drug reimbursement formulas. Pursuant to the DRA,
                  CMS must promulgate a regulation that clarifies AMP requirements by
                  July 1, 2007.1
                  To assess whether States are considering using new pricing data for
                  Medicaid prescription drug reimbursement, we surveyed Medicaid
                  pharmacy directors in all 50 States and the District of Columbia. We
                  asked States whether they are planning to use AMP and/or RSP data
                  for Medicaid drug reimbursement. We also asked States to describe any
                  factors that are influencing their decisions and indicate what additional
                  information they would like to receive before deciding whether to use
                  the new drug pricing data. Forty-seven States completed the survey.


                  FINDINGS
                  Most States have not decided whether to use AMP data for Medicaid
                  drug reimbursement. Thirty-nine of forty-seven States have not
                  decided whether to use AMP data for Medicaid drug reimbursement. Of
                  the remaining eight States, four are planning to use AMP data for

                     1 Deficit Reduction Act of 2005, section 6001(c)(3)(B).




OEI-03-06-00490   S TAT E S ’ U S E   OF   N E W D R U G P R I C I N G D ATA            i
E X E C U T I V E                       S U           M M A R Y


                   Medicaid drug reimbursement but have not yet implemented changes.
                   Another three States do not plan to use AMP data. One State indicated
                   that it is using AMP data to help determine maximum allowable costs
                   (MAC) for most drug products under its MAC program.
                   States raised concerns about the AMP data received from CMS.
                   States described inconsistencies between the AMP amounts provided by
                   CMS and the typical unit definition of the associated drug products. In
                   addition, some States reported that several drug products in CMS’s data
                   file did not have associated AMPs, that there were both unusually high
                   and low values (outliers) in the data, or that the AMP data seemed
                   unrelated to pharmacy acquisition costs. States also questioned
                   whether the vendors that already provide them with drug pricing
                   information for claims processing would have access to AMP data.
                   States that are undecided about using the AMP would like assurances
                   from CMS that the AMP data are accurate and valid. States are
                   anticipating CMS’s final regulations to clearly explain how the AMP
                   will be defined and calculated, including how the AMP would take into
                   account price differences among different pharmacy types within the
                   retail pharmacy class of trade.
                   Few States have decided whether to use RSP data for Medicaid drug
                   reimbursement. Of the 47 States, 1 indicated that it plans to use RSP
                   data and 3 indicated that they do not. The remaining 43 States have
                   not decided whether to use RSP data.

                   States had many of the same concerns regarding RSP data that they
                   had with AMP data and want assurances that RSP data will be valid
                   and accurate. States also want to know how RSP data will be
                   determined and defined, how RSP data will be collected, what
                   geographic areas the RSP data will represent, and how RSP data will
                   compare to other pricing data.


                   RECOMMENDATIONS
                   Pursuant to the DRA, CMS must promulgate regulations clarifying the
                   requirements for the AMP. In a May 2006 report, mandated by the
                   DRA, the Office of Inspector General made recommendations to CMS
                   regarding the clarification of AMP definitions and the issuance of
                   guidance to the States regarding the AMP-related reimbursement
                   provisions of the DRA.



 OEI-03-06-00490   S TAT E S ’ U S E   OF   N E W D R U G P R I C I N G D ATA         ii
E X E C U T I V E                       S U           M M A R Y


                   In this study, we conducted an early assessment of whether States are
                   considering using new pricing data for Medicaid prescription drug
                   reimbursement. Overall, many States have not decided whether they
                   will use either AMP or RSP data for Medicaid drug reimbursement.
                   States reported that AMP and RSP data must be accurate, reliable, and
                   accessible if they are to use these data in their Medicaid prescription
                   drug programs.
                   To ensure this, CMS should:

                   Explicitly detail AMP’s definition and calculation, including the definition
                   of retail pharmacy class of trade, when promulgating final regulations
                   regarding the AMP. Consistent with our previous recommendations,
                   States’ concerns about how the AMP will take into account different
                   types of pharmacies reinforce the need for CMS to clarify requirements
                   in regard to the definition of retail pharmacy class of trade.
                   Furnish States with interim guidance and/or information regarding AMP
                   data. We continue to recommend that CMS issue guidance to States
                   that addresses AMP-related reimbursement provisions of the DRA.
                   More specifically, based on the concerns raised by States in this review,
                   we recommend that CMS provide States with the unit definition for
                   drug products in AMP files distributed to States. In addition, before the
                   final regulations are published, CMS should work with States to
                   address their concerns regarding whether and how data would be
                   provided to their vendors for incorporation into their pricing and claims
                   processing systems.
                   Explicitly detail RSP’s definition, calculation, and method of collection
                   when distributing RSP data to States. CMS should detail whether and
                   how it will take into account differences in prices among pharmacy
                   types and within various geographical areas when determining RSPs.


                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   CMS generally agreed with our recommendations and has taken several
                   steps toward addressing them. CMS published a proposed regulation on
                   December 22, 2006, addressing the definition, calculation, and method
                   of collection for the AMP and reported that it will also address these
                   issues when it promulgates the final regulations. CMS also provided
                   guidance to State Medicaid directors on December 15, 2006; however,
                   the guidance does not address the States’ concerns regarding whether


 OEI-03-06-00490   S TAT E S ’ U S E   OF   N E W D R U G P R I C I N G D ATA               iii
E X E C U T I V E                       S U           M M A R Y



                   and how the new pricing data could be provided to their vendors for
                   incorporation into their pricing and claims processing systems. We
                   continue to recommend that CMS provide this information to States as
                   they consider the use of the new drug prices. CMS stated that unit
                   definitions for AMPs are available on its Web site; however, we
                   recommend incorporating this information in the AMP data file to make
                   the file a more effective and efficient tool for States.




 OEI-03-06-00490   S TAT E S ’ U S E   OF   N E W D R U G P R I C I N G D ATA       iv
Δ   T A B L E          O F            C O N T E N T S                              




         EXECUTIVE SUMMARY .....................................i




         INTRODUCTION ........................................... 1




         FINDINGS ................................................. 8

                    Most States have not decided whether to use the AMP . . . . . . . . . 8 


                    States raised concerns about the AMP data received . . . . . . . . . . . 8 


                    Few States have decided whether to use the RSP . . . . . . . . . . . . . . 9 




         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11 

                    Agency Comments and Office of Inspector General Response . . . 12 




         A P P E N D I X . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13 

                    Agency Comments. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13 



         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15 

Δ   I N T R O D U C T I O N                                                    



                  OBJECTIVE
                  To provide an early assessment of whether States are considering using
                  new pricing data for Medicaid prescription drug reimbursement.


                  BACKGROUND
                  Pursuant to the Deficit Reduction Act of 2005 (DRA), the Centers for
                  Medicare & Medicaid Services (CMS) is providing States with
                  sales-based drug pricing information that was previously not available
                  for their use. Recent studies have found that published prices, such as
                  average wholesale price and wholesale acquisition cost used by States to
                  estimate drug acquisition costs, are higher than prices based on actual
                  sales transactions. In July 2006, CMS began sending States average
                  manufacturer price (AMP) data monthly. CMS will also provide retail
                  sales price (RSP) data to States starting in early 2007. There is the
                  potential that States could reduce Medicaid drug expenditures by
                  incorporating the new drug pricing data into their reimbursement
                  formulas. This study provides an early look at whether States are
                  considering using the new pricing data and it identifies potential
                  barriers to States’ use of the new drug pricing data for Medicaid drug
                  reimbursement.
                  State Drug Reimbursement Methodologies
                  All States and the District of Columbia offer prescription drug coverage
                  under the Medicaid program (throughout the report, the District of
                  Columbia will be referred to as a State). Medicaid prescription drugs
                  are generally dispensed to beneficiaries through pharmacies that are
                  then reimbursed for the drugs by State Medicaid agencies. In 2005,
                  Federal and State expenditures for prescription drugs in the Medicaid
                  program reached $41 billion.2
                  Federal regulations require, with certain exceptions, that States
                  reimburse Medicaid prescription drugs in the aggregate at rates that do
                  not exceed the lower of (1) the estimated acquisition cost plus
                  reasonable dispensing fees, or (2) the provider’s usual and customary




                     2 Calculated using national summary data for 2005. Available online at

                  http://www.cms.hhs.gov/MedicaidDrugRebateProgram/SDUD/list.asp. Accessed on
                  October 30, 2006.



OEI-03-06-00490   S TAT E S ’ U S E   OF   N E W D R U G P R I C I N G D ATA                    1
I N T R O D        U C T            I O N


                    charge to the public for the drug.3 The regulations define estimated
                    acquisition cost to be the State’s “best estimate” of the price generally
                    and currently paid by providers for the drug.4 States have flexibility in
                    determining what will constitute an estimated acquisition cost for their
                    Medicaid program. Most States currently use the average wholesale
                    price (AWP) discounted by a specified percentage to determine
                    estimated acquisition cost. Fewer States use wholesale acquisition cost
                    (WAC) plus a markup percentage.5 The AWP and the WAC are drug
                    prices that are published in compendia produced by private companies.

                    There are several cost containment programs in place that impact
                    Medicaid drug spending. For example, the Federal Upper Limit (FUL)
                    program was established to ensure that the Government is a prudent
                    purchaser of Medicaid prescription drugs.6 Under the FUL program, at
                    the time of our review, reimbursement for drugs that have at least three
                    therapeutically equivalent drugs available was capped so that each drug
                    is reimbursed at 150 percent of the published price for the lowest cost
                    equivalent drug.7 States are required to meet the FUL requirements
                    only in the aggregate. Therefore, a State can pay more than the FUL
                    amount for certain products as long as it pays less than the FUL
                    amount for other products. States may also establish Maximum
                    Allowable Cost (MAC) programs that stipulate maximum drug prices for
                    Medicaid reimbursement. Compared to the FUL program, States
                    generally have more latitude in determining which drugs to include in
                    their MAC programs and at what prices to set MACs. As of fiscal year
                    2006, 32 States reported having MAC programs in place to help contain
                    their Medicaid drug costs.8



                       3 42 CFR § 447.331(b). In December 2006, CMS issued a proposed regulation that
                    removes 42 CFR § 447.331 but includes the substance of that section in a new section
                    designated as 42 CFR § 447.512.
                       4 42 CFR § 447.301. In the December 2006 proposed regulation, this definition is

                    included in a new section designated as 42 CFR § 447.502.
                       5 “Medicaid Prescription Reimbursement Information by State – Quarter Ending

                    September 2006.” Available online at
                    http://www.cms.hhs.gov/MedicaidDrugRebateProgram/Downloads/RxReimbursementRate
                    September2006Qtr.pdf. Accessed October 16, 2006.
                       6 State Medicaid Manual, section 6305.1.
                       7 Section 1927(e)(4) of the Social Security Act and 42 CFR § 447.332.
                       8 “Low Medicaid Spending Growth Amid Rebounding State Revenues,” The Kaiser

                    Commission on Medicaid and the Uninsured. Available online at
                    http://www.kff.org/medicaid/upload/7569.pdf. Accessed October 10, 2006.



 OEI-03-06-00490    S TAT E S ’ U S E   OF   N E W D R U G P R I C I N G D ATA                             2
I N T R O D        U C T            I O N


                    The dispensing fees that States pay in addition to estimated acquisition
                    cost currently range from approximately $2 per prescription to $12.50
                    per prescription.9
                    The Deficit Reduction Act and Medicaid Drug Prices
                    Enacted in February 2006, the DRA contains several provisions that
                    impact Medicaid reimbursement for prescription drugs. Pursuant to the
                    DRA, AMP and RSP data are to be made available to States for their
                    use in Medicaid drug reimbursement. Furthermore, the DRA modifies
                    the way FULs for Medicaid drugs will be calculated.

                    Average Manufacturer Prices. Sections 1927(a)(1) and (b)(1) of the Social
                    Security Act (the Act) mandate that for Federal payment to be available
                    for covered outpatient drugs provided under Medicaid, drug
                    manufacturers enter into rebate agreements with the Secretary of the
                    Department of Health and Human Services (HHS) and pay quarterly
                    rebates to State Medicaid agencies. Under these rebate agreements and
                    pursuant to section 1927(b)(3) of the Act, manufacturers must provide
                    CMS with the AMP for each of their covered outpatient drugs by the
                    national drug code (NDC). Pursuant to section 1927(b)(3)(A) of the Act,
                    manufacturers must report AMP data no later than 30 days after the
                    last day of the rebate period. Before the passage of the DRA, CMS did
                    not provide AMP data to States. Although the DRA does not require
                    States to use AMP data in their Medicaid drug reimbursement
                    formulas, the dissemination of AMP data to States in accordance with
                    the DRA would provide States with a new source of pricing data for
                    establishing estimated acquisition cost.
                    AMP data are based on actual sales transactions and, during the time of
                    our review, was defined as the average price paid to the manufacturer
                    for the drug in the United States by wholesalers for drugs distributed to
                    the retail pharmacy class of trade, after deducting customary prompt
                    pay discounts.10 The AMP is calculated as a weighted average of all
                    prices for all of a manufacturer’s package sizes of a covered outpatient


                      9 This range excludes dispensing fees for home IV therapy. “Medicaid Prescription

                    Reimbursement Information by State – Quarter Ending September 2006.”
                    Available online at
                    http://www.cms.hhs.gov/MedicaidDrugRebateProgram/Downloads/RxReimbursementRate
                    September2006 Qtr.pdf. Accessed October 16, 2006.
                       10 Section 1927(k)(1) of the Act. The DRA (section 6001(c)(1)(C)) modified the AMP

                    definition effective January 1, 2007, and requires that AMP calculations be determined
                    without regard to customary prompt pay discounts extended to wholesalers.



 OEI-03-06-00490    S TAT E S ’ U S E   OF   N E W D R U G P R I C I N G D ATA                               3
I   N T    R   O      D   U      C     T      I    O        N



                              drug sold during a given time period and is reported for the lowest
                              identifiable unit of the drug (e.g., 1 milligram, 1 milliliter, 1 tablet,
                              1 capsule).

                              Section 6001(b) of the DRA mandates that CMS share AMP data with
                              States on a monthly basis beginning in July 2006. As required by the
                              DRA, CMS sent AMP data in compact disc (CD) format to States on
                              July 5, 2006.11 According to CMS staff, AMP data will be provided to
                              the States on an ongoing basis by the 12th of each month.

                              The DRA also mandated that the HHS Office of Inspector General (OIG)
                              review and report on the requirements for, and the manner in which,
                              AMPs are determined under the Act and recommend appropriate
                              changes to the Secretary of HHS (hereafter referred to as the Secretary)
                              and Congress.12 Pursuant to the DRA, after considering OIG’s findings
                              and recommendations, the Secretary must promulgate a regulation that
                              clarifies AMP requirements by July 1, 2007.13 CMS issued a proposed
                              regulation addressing AMP and other issues in December 2006.

                              In May 2006, CMS noted pharmacists’ concerns that AMP data need to
                              consistently include prices available to the retail pharmacy class of
                              trade before they are used as reference points in setting pharmacy
                              reimbursement. CMS also noted that “the more specific definition of
                              AMP” that is to be included in the forthcoming regulation is not
                              reflected in the current AMP data. CMS stated that it will release
                              certain AMP data as the DRA mandates, but only to help States “set up
                              their billing systems appropriately and not for the purposes of setting
                              reimbursements.”14



                                 11 The following disclosure was printed on each CD sent to States, “Section 1927(b)(3)(D)

                              of the Social Security Act requires that, notwithstanding any other provision of law, these
                              AMPs be kept confidential and shall not be disclosed by a State agency (or contractor
                              therewith) in a form which discloses the identity of the manufacturer or any prices charged
                              for drugs by that manufacturer. States are restricted from disseminating, distributing, or
                              using AMP data, except as specifically authorized by the drug rebate statute.”
                                12 Deficit Reduction Act of 2005, section 6001(c)(3)(A). In May 2006, OIG issued a report,
                              “Determining Average Manufacturer Prices for Prescription Drugs Under the Deficit
                              Reduction Act of 2005” (A-06-06-00063).
                                 13 Deficit Reduction Act of 2005, section 6001(c)(3)(B).
                                 14 “National Community Pharmacists Association’s (NCPA) 38th Legislation and
                              Government Conference, Remarks of Mark B. McClellan, MD, Ph.D., as delivered to the
                              NCPA 38th Legislation and Government Conference, May 22, 2006.” Available online at
                              http://www.cms.hhs.gov/apps/media/press/speech.asp?Counter=1866. Accessed July 26,
                              2006.



    OEI-03-06-00490           S TAT E S ’ U S E   OF   N E W D R U G P R I C I N G D ATA                                 4
I N T R O D        U C T            I O N


                    Retail Sales Prices. Section 6001(f) of the DRA also contains provisions
                    on the collection and dissemination of RSPs to States. These provisions
                    state that the Secretary is permitted to contract with a vendor to collect
                    information on RSPs that represent a nationwide average of consumer
                    purchase prices, net of all discounts and rebates (to the extent
                    information on discounts and rebates is available) for Medicaid covered
                    outpatient drugs.15 This vendor will provide RSP data to the Secretary
                    on a monthly basis. According to CMS staff, the vendor was selected
                    and a kickoff meeting was held on October 5, 2006. Furthermore, the
                    DRA directs the Secretary to provide a means for States to access RSP
                    data on at least a monthly basis.16 CMS staff expect that RSP data will
                    be made available to States by January or February 2007.

                    As outlined in section 6001(f)(3) of the DRA, the Secretary is to compare
                    RSP data to Medicaid price data for the 50 most widely prescribed
                    Medicaid outpatient drugs by State. The Secretary is also to ensure
                    that annual reports on these rankings are available for review by
                    Congress and the States. The vendor will also produce these annual
                    reports and provide them to CMS starting in March 2008.17
                    Changes to the Federal Upper Limit. Pursuant to the DRA, the FUL for
                    multiple source drugs will be based on 250 percent of the AMP (instead
                    of 150 percent of the lowest published price) for the least costly
                    therapeutic equivalent effective January 1, 2007.18 The DRA also
                    requires that at that time Medicaid drugs have two therapeutic
                    equivalents (instead of three) to be included on the FUL list.19
                    Related Office of Inspector General Work
                    Average Manufacturer Prices and the Deficit Reduction Act. Pursuant to
                    DRA requirements, OIG released a report in May 2006, “Determining
                    Average Manufacturer Prices for Prescription Drugs Under the Deficit
                    Reduction Act of 2005” (A-06-06-00063), which concluded, among other
                    things, that manufacturers’ methods of calculating AMPs were
                    inconsistent. Specifically, the report found that manufacturers did not
                    consistently define the retail pharmacy class of trade when compiling

                       15 Deficit Reduction Act of 2005, section 6001(f)(1).

                       16 Deficit Reduction Act of 2005, section 6001(f)(1)(E). 

                       17 The planned timeframe of these annual reports is specified in CMS’s request for 

                    proposals, “Survey of Retail Prices; Payment and Utilization Rates; and Performance
                    Rankings” (RFP-CMS-2006-0010ERD).
                       18 Deficit Reduction Act of 2005, section 6001(a).
                       19 Ibid.




 OEI-03-06-00490    S TAT E S ’ U S E   OF   N E W D R U G P R I C I N G D ATA                                5
I N T R O D         U C T         I O N



                      AMP calculations. OIG recommended that the Secretary direct CMS, in
                      promulgating AMP regulation, to clarify requirements in regard to the
                      definition of retail pharmacy class of trade and the treatment of
                      pharmacy benefit manager rebates and Medicaid sales and to consider
                      addressing issues raised by industry groups. OIG also recommended
                      that the Secretary direct CMS to issue, in the near future, guidance that
                      specifically addresses the implementation of the AMP-related
                      reimbursement provisions of the DRA and encourage States to analyze
                      the relationship between AMPs and pharmacy acquisition costs to
                      ensure that the Medicaid program appropriately reimburses pharmacies
                      for estimated acquisition costs.

                      Published Prices and Sales-Based Prices. Previous OIG work shows that
                      Medicaid reimbursement for prescription drugs often exceeds actual
                      pharmacy drug acquisition costs.20 In addition, more recent studies
                      have found that published prices (i.e., AWP and WAC) used by States to
                      estimate drug acquisition costs are higher than prices based on actual
                      sales transactions.21 Specifically, one OIG report found that the AMP is
                      59 percent lower than the AWP at the median and 25 percent lower
                      than the WAC at the median.22 The report also found that the
                      difference between the AMP and published prices currently used by
                      States is even more pronounced for generic drugs, for which the AMP is
                      70 percent lower than the AWP at the median.


                      METHODOLOGY
                      Scope and Data Source
                      To determine whether States are planning to use the new pricing data
                      for Medicaid drug reimbursement, we surveyed Medicaid pharmacy
                      directors in all 51 States.
                      Data Collection and Analysis
                      A survey was e-mailed to State Medicaid pharmacy directors on
                      September 7, 2006, and data collection was completed on October 3,



                         20 “Medicaid Pharmacy – Additional Analyses of the Actual Acquisition Cost of

                      Prescription Drug Products” (A-06-02-00041, September 2002).
                         21 “Medicaid Drug Price Comparison: Average Sales Price to Average Wholesale Price”

                      (OEI-03-05-00200, June 2005) and “Medicaid Drug Price Comparisons: Average
                      Manufacturer Price to Published Prices” (OEI-05-05-00240, June 2005).
                        22 “Medicaid Drug Price Comparisons: Average Manufacturer Price to Published Prices”
                      (OEI-05-05-00240, June 2005).



  OEI-03-06-00490     S TAT E S ’ U S E   OF   N E W D R U G P R I C I N G D ATA                               6
I   N T   R   O   D    U   C     T     I       O     N



                           2006. Forty-seven pharmacy directors completed the survey, for a
                           response rate of 92 percent.

                           State pharmacy directors were asked about their review of the AMP
                           data provided by CMS, including whether they found the data format
                           useful and whether they had noted any potential problems with the
                           data file (such as outliers). We asked pharmacy directors to indicate
                           whether their States plan to use AMP data for Medicaid drug
                           reimbursement, do not plan to use AMP data, or had not yet decided on
                           its use. Pharmacy directors of States that were planning to use the
                           AMP were asked how they plan to use the data, either in their drug
                           acquisition cost formulas or State MACs. These pharmacy directors
                           were asked to describe any influencing factors in their decisions to use
                           AMP data as well as any obstacles that might prevent their use of the
                           data. We asked pharmacy directors what information would help them
                           to make decisions about using AMP data for Medicaid drug
                           reimbursement. For pharmacy directors who indicated that their States
                           do not plan to use AMP data, we requested reasons that the data would
                           not be used. We also asked pharmacy directors if their States plan to
                           use RSP data for Medicaid drug reimbursement when the data became
                           available and what information would help them to make decisions
                           about using RSP data.

                           From the survey data, we determined the frequency counts of closed-
                           ended survey questions. We reviewed open-ended survey questions and
                           categorized the responses for analysis and reporting. The term “State”
                           is used interchangeably with “pharmacy director” throughout the report
                           to describe the responses of individual State Medicaid pharmacy
                           directors who provided information on behalf of their States’ Medicaid
                           programs.
                           Standards
                           This study was conducted in accordance with the “Quality Standards for
                           Inspections” issued by the President’s Council on Integrity and
                           Efficiency and the Executive Council on Integrity and Efficiency.




     OEI-03-06-00490       S TAT E S ’ U S E   OF   N E W D R U G P R I C I N G D ATA          7
F   I N D I N G        S
Δ       F I N D I N G S

Most States have not decided whether to use                Thirty-nine of forty-seven States
 AMP data for Medicaid drug reimbursement                  have not decided whether to use
                                                           AMP data for Medicaid drug
                      reimbursement. Of the remaining eight States, four are planning to
                      use AMP data for Medicaid drug reimbursement but have not yet
                      implemented changes. Of these four States, two are unsure as to how
                      they plan to use AMP data for Medicaid drug reimbursement, one State
                      plans to use the AMP for estimated acquisition costs, and another State
                      plans to compare it’s MACs to its current drug prices and to the new
                      AMP-based FULs. Another three States do not plan to use AMP data.
                      One State indicated that it is using AMP data to help determine MACs
                      for most drug products under its MAC program.

                      Fourteen of the thirty-nine States that are undecided reported that they
                      would consider using the AMP to determine estimated acquisition costs.
                      Four States reported that they would consider using the AMP to
                      establish State MACs. The remaining undecided States either did not
                      know or did not indicate how they would consider using AMP data.
                      States that are undecided want to perform analysis of AMP data
                      Fifteen States that are undecided about using the AMP reported that
                      they want to perform an analysis to determine how incorporating the
                      AMP into their reimbursement methodology would affect
                      reimbursement amounts. Three of these States would like to further
                      determine how a new pricing methodology would compare to current
                      methodologies. States reported that an analysis must be conducted to
                      determine the impact of a new reimbursement methodology on State
                      budgets, providers, and beneficiaries.



     States raised concerns about the AMP data               Thirty-three of forty-seven States
                            received from CMS                expressed at least one concern
                                                             about AMP data. Of the 33 States
                      that have data concerns, 30 were undecided about using the AMP, 2 do
                      not plan to use the AMP, and 1 plans to use the AMP. Five States
                      described inconsistencies between the AMP units reported by CMS to
                      States and the typical unit definition of the associated drug products.
                      For example, one of these States commented that there are
                      “discrepancies between the units used for AMP pricing and the units
                      used for other pricing methodologies,” and another State commented
                      that “the AMPs that have been provided appear to have different unit
                      definitions than those provided by the drug file vendors.” Nine States

    OEI-03-06-00490   S TAT E S ’ U S E   OF   N E W D R U G P R I C I N G D ATA            8
F 	I N D I N G      S


                   would like the unit definition on which the AMP is based to be included
                   in the AMP files provided by CMS. Five States also questioned whether
                   the vendors that already provide them with drug pricing information for
                   claims processing would have access to AMP data. States raised other
                   concerns about the AMP data they received:
                        •	 Six States reported that some drug products did not have
                              associated AMPs in the data file that CMS provided. For
                              example, one pharmacy director reported that “approximately
                              7 percent (over 2,600) of the NDCs listed have no data supplied.”
                        •	 Four States described problems with both unusually high or low
                              values (outliers) in the AMP files. One State pointed out that
                              the aberrantly low AMPs that it found in the AMP file are
                              problematic because FULs are based on the lowest AMP for the
                              drug product.
                        •	 Four States commented that there was little correlation between
                              the AMP data supplied to them and pharmacy acquisition costs.
                              For example, one State’s analysis of AMP data showed that
                              values were often “far below or far above the average acquisition
                              cost” they calculate among providers in their State.

                   States that are undecided about using the AMP would like assurances
                   from CMS that AMP data are accurate and valid. States are
                   anticipating CMS’s final regulations to clearly explain how the AMP
                   will be defined and calculated, including how the AMP would take into
                   account price differences among different pharmacy types (e.g.,
                   independent, chain, long term care, specialty, mail order) within the
                   retail pharmacy class of trade. Nine States expressed hesitation about
                   using AMP data before CMS has issued final regulations regarding its
                   definition.



Few States have decided whether to use RSP                Of the 47 States, 1 indicated that
      data for Medicaid drug reimbursement                it plans to use RSP data and
                                                          3 indicated that they do not. The
                   remaining 43 States have not decided whether to use RSP data. Two of
                   the three States that do not plan to use the RSP are also not planning to
                   use the AMP. Until they received our survey, 16 of the 47 States
                   surveyed were not aware that CMS is collecting and will be
                   disseminating RSP data.



 OEI-03-06-00490   S TAT E S ’ U S E   OF   N E W D R U G P R I C I N G D ATA                  9
F 	I N D I N G      S


                   States want more information about RSP data before making decisions
                   States had many of the same concerns regarding RSP data that they
                   had regarding AMP data and wanted additional information about the
                   RSP:
                        •	     Twenty States wanted to know how RSP data will be
                               determined or defined before they make decisions about their
                               use. Some States emphasized the importance of knowing the
                               types of pharmacies that will be included in RSP calculations or
                               preferred that RSP data be provided separately for the different
                               pharmacy types.
                        •	     Nine States wanted information about the methods that will be
                               used to collect RSP data or how frequently RSP data will be
                               updated. For example, one pharmacy director asked whether
                               RSP information will be gathered by “phone surveys, walk-in,
                               [or] e-mail” or whether pharmacies would be aware that they
                               are being surveyed.
                        •	     Seven States reported that they want assurances that RSP data
                               are valid and accurate before using them for Medicaid drug
                               reimbursement.
                        •	     Seven States wanted to know the geographical area that will be
                               represented by the RSP data, with a few States specifying that
                               they want the data to be representative of their States before
                               deciding on their use.
                        •	     Six States commented that, before deciding whether to use the
                               data, they would want to evaluate how RSPs compare to their
                               current drug prices. Three States would want to evaluate how
                               RSPs compare to AMPs.




 OEI-03-06-00490   S TAT E S ’ U S E   OF   N E W D R U G P R I C I N G D ATA                10
Δ   R E C O M M E N D A T I O N S                                              



                  RECOMMENDATIONS
                  Pursuant to the DRA, CMS must promulgate regulations clarifying the
                  requirements for the AMP and make the AMP and the RSP available to
                  States for their use in Medicaid drug reimbursement. In a May 2006
                  report, mandated by the DRA, OIG made recommendations to CMS
                  regarding the clarification of AMP definitions and the issuance of
                  guidance to the States regarding AMP-related reimbursement
                  provisions of the DRA.

                  In this study, we conducted an early assessment of whether States are
                  considering using new pricing data for Medicaid prescription drug
                  reimbursement. Overall, many States have not decided whether they
                  will use either AMP or RSP data for Medicaid drug reimbursement.
                  Many of these States have concerns regarding AMP and RSP data.
                  Concerns about the AMP were focused both on the quality of the AMP
                  data provided and on the need for clearly defined CMS regulations.
                  States want the AMP and the RSP to be defined appropriately and
                  consistently before using the data to implement Medicaid drug
                  reimbursement changes. States reported that AMP and RSP data must
                  be accurate, reliable, and accessible if they are to use these data in their
                  Medicaid prescription drug programs.
                  To ensure this, CMS should:

                  Explicitly detail AMP’s definition and calculation, including the definition
                  of retail pharmacy class of trade, when promulgating final regulations
                  regarding the AMP. Consistent with our previous recommendations,
                  States’ concerns about how the AMP will take into account different
                  types of pharmacies reinforce the need for CMS to clarify requirements
                  in regard to the definition of retail pharmacy class of trade.
                  Furnish States with interim guidance and/or information regarding AMP
                  data. We continue to recommend that CMS issue guidance to States
                  that addresses AMP-related reimbursement provisions of the DRA.
                  More specifically, based on the concerns raised by States in this review,
                  we recommend that CMS provide States with the unit definition for
                  drug products in AMP files distributed to States. In addition, before the
                  final regulations are published, CMS should work with States to
                  address their concerns regarding whether and how data would be
                  provided to their vendors for incorporation into their pricing and claims
                  processing systems.



OEI-03-06-00490   S TAT E S ’ U S E   OF   N E W D R U G P R I C I N G D ATA               11
R   E C O        M M E N D A T                         I O N             S


                      Explicitly detail RSP’s definition, calculation, and method of collection
                      when distributing RSP data to States. CMS should detail whether and
                      how it will take into account differences in prices among pharmacy
                      types and within various geographical areas when determining the
                      RSP.


                      AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                      RESPONSE
                      CMS believes the timing of our report caused inconclusive results
                      because it would have been premature for States to have made decisions
                      about the use of the new drug prices as early as September 2006.
                      However, CMS generally agreed with our recommendations and has
                      taken several steps toward addressing them. CMS published a
                      proposed regulation on December 22, 2006, addressing the definition,
                      calculation, and method of collection for the AMP and reported that it
                      will also address these issues when it promulgates the final regulations.
                      CMS stated that it provided guidance to State Medicaid directors on
                      December 15, 2006, concerning AMP issues and provides the unit
                      definition of the AMP on its Web site. CMS also reported it will provide
                      sufficient detail regarding the RSP when those data are provided to
                      States. The full text of CMS’s comments is provided in the Appendix.

                      While CMS believes this study was premature, OIG believes it was
                      important to conduct this study to provide an early assessment of
                      States’ plans and concerns regarding the new drug pricing data, so that
                      CMS could address these concerns in its regulations and other guidance.
                      CMS has taken steps toward addressing our first two recommendations;
                      however, we recommend additional actions in those areas. The
                      guidance provided by CMS in December does not address the States’
                      concerns regarding whether and how the new pricing data could be
                      provided to their vendors for incorporation into their pricing and claims
                      processing systems. We continue to recommend that CMS provide this
                      information to States as they consider the use of the new drug prices.
                      Also, while unit definitions are available on CMS’s Web site, we
                      recommend incorporating this information in the AMP data file to make
                      the file a more effective and efficient tool for States.




    OEI-03-06-00490   S TAT E S ’ U S E   OF   N E W D R U G P R I C I N G D ATA             12
Δ   A P P E N D I X


     Agency Comments




OEI-03-06-00490   S TAT E S ’ U S E   OF   N E W D R U G P R I C I N G D ATA   13
A P P E N D        I X




 OEI-03-06-00490   S TAT E S ’ U S E   OF   N E W D R U G P R I C I N G D ATA   14
Δ   A C K N O W L E D G M E N T S                                              




                  This report was prepared under the direction of Robert A. Vito, Regional
                  Inspector General for Evaluation and Inspections in the Philadelphia
                  regional office, and Linda M. Ragone, Deputy Regional Inspector
                  General.

                  Tanaz Dutia and Tara Bernabe served as the team leaders for this
                  study. Other principal Office of Evaluation and Inspections staff from
                  the Philadelphia regional office who contributed to this report include
                  Diane Epstein, and central office staff who contributed include Sarah
                  Craren, Kevin Farber, Melissa Montgomery, and Cynthia Thomas.




OEI-03-06-00490   S TAT E S ’ U S E   OF   N E W D R U G P R I C I N G D ATA           15
